Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  MARKETING OF INCONTINENCE
           SUPPLIES
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECITONS

The 010’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efilciency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office, under the direction of Joy Quill, Regional Inspector General and Robert A.
Vito, Deputy Regional Inspector General. Project staff included:

PHILADELPHIA REGION                                 HEADQuARTERs

Robert A. Katz, R-eject Leader
                     Thomas I% Noplock, F70gram Specialist
Linda M. Ragone, Progam Analyst
                    Richard P. Lyons, 0jj7ce of Audit Services
Robert A. Baiocco, Rogram Analyst
                  Linda M. Moscoe, Technical Suppoti Staf
Cynthia Hansford, Administrative Staff
             Brian P. Ritchie, Technical Suppoti Stafl
                                                    Barbara Tedesco, Technical Suppoti Staff


To obtain a copy of this repor$ please cd the Philadelphia Regional Office at (MM)531-9562
Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




  MARKETING OF INCONTINENCE
           SUPPLIES
              EXECUTIVE                        SUMMARY

PURPOSE

This report describes supplier and nursing home practices that can lead to
inappropriate payments for incontinence supplies, and examines issues concerning
Medicare beneficiaries’ use of incontinence supplies.

BACKGROUND

Medicare Part B expenditures for incontinence supplies have more than doubled tlom

1990 to 1993. In 1993, these expenditures totaled $230 million, up from $88 million in

1990.


Incontinence is the inability of the body to control urinary and bowel functions. Under

the Medicare Part B program, the Health Care Financing Administration (HCFA) will

reimburse suppliers that provide incontinence supplies to aid individuals whose

incontinence condition “...is of long and indefinite duration.” Such reimbursement is

provided as part of Medicare’s coverage for prosthetic devices such as catheters and

external urinary collection devices. The HCFA will also reimburse for accessories such

as irrigation syringes and sterile saline solutions that aid in the effective and

therapeutic use of these devices. Claims for incontinence supplies are now processed

by four Durable Medical Equipment Regional Carriers (DMERCS).


We collected data from both nursing homes and Medicare beneficiaries for this report.

We selected a random sample of 180 nursing homes from HCFA’S Online Survey

Certification and Reporting system and a stratified sample of 400 beneficiaries who

received Medicare-reimbursed incontinence supplies in 1993.


FINDINGS

Inforrnution jhm musinghomes indicatesthatsupplienengagein qu.estikrblk       rnak%btg
practices.

Twenty-four percent of nursing homes reported that supplier representatives decide
the number of supplies to be delivered in a given month to beneficiaries. In addition,
nursing homes reported other questionable practices by suppliers, such as routine
waiving of beneficiary coinsurance payments and offers of inducements in exchange for
allowing suppliers to prow’de incontinence supplies to patients.

Beneficiizritx
             muy be receivingunnecessaryor non-coveredsupplies.

Beneficiary responses indicate that their incontinence problems did not always meet
Medicare coverage guidelines. Beneficiaries also report that they do not utilize all of
the incontinence supplies that are reimbursed by Medicare. Of the beneficiaries who
received these supplies, almost 30 percent said they did not use all the supplies paid
for by Medicare.

Numhg homes reprt thatsome supplienr
                                   presentthem withfake or rni$kwhg
infomlatim

Twenty-two percent of nursing homes received false information from suppliers stating
that Medicare is introducing “new broader coverage” for incontinence supplies. one
out of ten nursing homes has been incorrectly told by a supplier that Medicare will
cover other routine incontinence supplies such as absorbent undergarments if syringes,
sterile solutions, and lubricants are purchased.

Many nursinghomes do not trackMedicare-reimbumed
                                               suppliks to the spec@            b~
for whichthey werebilled

More than two-thirds of nursing homes (68 percent) store supplies in a general store
room without patient labels or identification. In addition, almost one-third of nursing
homes (32 percent) using Medicare-reimbursed incontinence supplies stored excess
supplies and then used them as needed for all patients. Medicare and individual
beneficiaries may be paying month after month for unnecessary supplies which maybe
used for other patients.

NExT   STEPS

IncontinenceSupplies

In response to the information presented in this report and a companion report, the
Office of Inspector General plans to:

       o	      initiate an audit review to examine in more detail payments made for
               incontinence supplies in order to determine if any overpayments are
               involved in this area; and

       o	      launch a national investigation in this area, examining potentially
               fraudulent practices by specific suppliers of incontinence supplies.

We also support ongoing activity in HCFA and the DMERCS to develop more specific
coverage guidelines and educate providers and suppliers about proper billing for such
supplies. We hope the information contained in this report is helpful as they complete
this activity.

OIG Studiesof OtherNumingHome Sem”ces

The OIG will continue studies and audits related to its major initiative examining
services and supplies provided to Medicare beneficiaries residing in nursing facilities.
As this report and other OIG work has reflected, the fragmentation of billing for


                                             ii
services and supplies provided to residents of nursing homes has created a host of
improper incentives for billers to the Medicare program.

Bundh%gof Sewi&r

We continue to support HCFA’S efforts to pursue a systematic solution to these kinds
of problems through a requirement for “bundling” of services in nursing home settings.
Under such an approach, the nursing home would be responsible for providing
commonly needed services to residents of that facility, rather than allowing for
separate billing by suppliers. Such a solution would eliminate the incentives suppliers
now have to aggressively seek out patients in nursing homes and market their products
inappropriately in those settings. It would also ensure that nursing homes take on
appropriate responsibilities for services and supplies delivered to residents in their
facilities.




                                           ...
                                          111
                            TABLE                     OF CONTENTS

                                                                                                                         PAGE

EXECUTIVESUMMARY                            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..Qi


INTRODUCTION                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


    �Questionable         marketing practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


    .Beneficiaries       receiving unnecessary supp]ies . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


    �Suppliers       present misleading information                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


    �NO   tracking      of Medicare supplies in ntu-singhomes                        . . . . . . . . . . . . . . . . . . . . . . 9


IW3XT STEPS              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. O. . . . ...10


APPENDICES


A     Nursing Facility Survey Instrument and Response Rates                                  . . . . . . . . . . . . . . . . A-1


B: Beneficiary Survey Instrument and Response Rates . . . . . . . . . . . . . . . . . . . . B-1

                         INTRODUCTION


PURPOSE

This report describes supplier and nursing home practices that can lead to
inappropriate payments for incontinence supplies, and examines issues concerning
Medicare beneficiaries’ use of incontinence supplies.

BACKGROUND

Medicare Part B expenditures for incontinence supplies have more than doubled from
1990 to 1993. In 1993, these expenditures totaled $230 million, up from $88 million in
1990.

MedicareCoverageof IncontinenceSupplies

Incontinence is the inability of the body to control urinary and bowel functions.
Reimbursement for incontinence supplies are included as part of Medicare’s coverage
for prosthetic devices. According to Medicare Carriers Manual (MCM) section 2130,
“prosthetic devices (other than dental) which replace all or part of an internal body
organ (including contiguous tissue), or replace all or part of the function of a
permanently inoperative or malfunctioning internal body organ are covered when
furnished on a physician’s order.”

Under Medicare Part B, the Health Care Financing Administration (HCFA) will
reimburse suppliers that provide incontinence supplies to aid individuals whose
incontinence condition “...is of long and indefinite duration.” Certain items, such as
absorbent undergarments or diapers, are specifically excluded from coverage.

Incontinence supplies include prosthetic devices such as catheters and external urinary
collection devices such as pouches or cups. Catheters are flexible, tubular instruments
used to control urinary flow. The HCFA will also reimburse for supplies that aid in
the effective and therapeutic use of these devices. These supplies include items such
as drainage bags, irrigation syringes, sterile saline solutions, and lubricants.

Carrier%xzssing of IncontinenceSupplyClaims

In June 1992, HCFA issued a final rule that designated four Durable Medical
Equipment Regional Carriers (DMERCS) to process all durable medical equipment,
prosthetic, orthotic, and supply claims. Effective October 1, 1993, the DMERCS
replaced more than 50 area carriers which had previously processed DME claims.
The geographical areas formerly serviced by the carriers were phased in under the
DMERCS on a staggered basis. The DMERCS are responsible for assuring that
claims submitted by suppliers meet all applicable coverage and medical necessity
requirements prior to Medicare reimbursement. Each DMERC issued its own


                                            1
coverage and reimbursement policies that implement Medicare guidelines. These

guidelines included appropriate monthly utilization standards for certain supplies like

catheters.


To achieve uniformity in incontinence coverage, the DMERCS issued a draft of a

single, national policy concerning urological supplies in October 1994. The draft policy

redefines and clarifies some of the standards used in processing claims for

incontinence and urological supplies. The policy defines what products meet the

definition of female and male urinary collection devices. It emphasizes the non-

coverage of diapers and similar absorptive pads. The policy also reinforces the

condition of “permanence” for coverage purposes and stresses that incontinence

supplies not used in conjunction with covered catheters or external urinary collection

devices are not covered.


MedicareFraudAlert

In June 1994, a DMERC issued a Medicare Fraud Alert describing a supplier scheme
involving the marketing of incontinence kits to nursing homes. In this case, the
supplier advised nursing home officials that Medicare was paying for the kits under a
pilot program. According to the alert, supplier representatives exchange kits
containing diapers along with supplies, such as syringes, saline, and lubricants, to the
nursing homes in exchange for beneficiary names and health insurance numbers. The
marketing representatives then order bulk quantities of supplies billed in the
beneficiary’s name.

The alert also indicated that the supplier’s marketing program stated that the
treatment with this kit should be three times per day for each patient in the facility.
This resulted in Medicare being billed $1,800 per month per beneficiary in one carrier
jurisdiction.

METHODOLOGY

For the purposes of this report, we collected data from both nursing homes and
Medicare beneficiaries.

NiusingHome Sample

To determine how suppliers market incontinence supplies and how nursing homes
handle the provision of incontinence supplies, we selected a random sample of 180
skilled nursing facilities and nursing homes from HCFA’S Online Survey Certification
and Reporting (OSCAR) system. The system contains every nursing home that is
certified to receive Medicare or Medicaid funds.

At the time our sample was generated in September 1994, the system contained data
on 16,642 nursing homes. We decided to sample nursing homes that had a total size



                                            2

of 60 beds or more. This gave us a universe of 12,879 nursing homes from which we
sampled for the 180 nursing homes.

After removing four facilities which were under investigation by the Office of
Investigations from the sample, we sent identical questionnaires to the administrators
of the remaining 176 nursing homes. Surveys were returned by 140 nursing homes
giving us a response rate of 80 percent.

We chose to project responses only to the responding universe and not to the total
universe of 12,879 nursing homes. Responses from the 140 nursing homes were
projected only to the responding universe which would be 80 percent (rounded from
79.54545) of the 12,879, or 10,245 nursing homes.

In order to accurately project responses to the total universe, we would have had to
perform an analysis of non-respondents to evaluate the characteristics of nursing
homes who chose not to respond. Because we knew very little about the non-
responding nursing homes, we decided to use the more conservative responding
universe. The survey instrument, nursing home responses, and an accompanying
explanation of the survey results appear in Appendix A.

Bene@ary Samp12

To collect information from Medicare beneficiaries who use incontinence supplies, we
sampled beneficiaries who received Medicare-reimbursed incontinence supplies in
1993. We selected a stratified random sample drawn from the National Claims
History 1 percent sample file. This file includes allowed claims paid by Medicare in
1993. As selection criteria, we used 43 billing codes which represent the types of
supplies most commonly used by incontinent beneficiaries.

We found that 4,507 individuals met our selection criteria. This number decreased to
3,079 after we removed deceased individuals identified through information in HCFA’S
Enrollment Database.

We stratified our sample into the following two groups: individuals with $1,000 or
more allowed dollars for incontinence supplies and individuals with under $1,000
allowed dollars for incontinence supplies during 1993. We sampled 400 beneficiaries;
the number of beneficiaries
 from each stratum is presented in the table below.


 Strata
                      Universe                   Sample
 Over $1,000
                 476                        200
 Under $1,000
              I 2,603                    I 200                       II
 Total
                     I 3,079                    I 400                       II


                                            3

After selecting the sample and mailing questionnaires to beneficiaries, we decided to
remove from the sample any beneficiary whose claims might be associated with ostomy
services. This resulted in removing 81 beneficiary responses from the 302 received.
After excluding this group, there were 221 respondents used for the analysis. The
responses from these beneficiaries were projected to 141,932 beneficiaries nationwide.
As was the case in the nursing home sample, we chose to project the beneficiary
responses to the responding universe and not the total universe of beneficiaries
receiving Medicare-reimbursed supplies. We selected the more consemative approach,
since we did not do an analysis of non-responses and therefore could not determine if
there would be bias among that group. A sample of the survey instrument, confidence
intervals, and beneficial responses appear in Appendix B.

This report is one of a series of reports concerning Federal payments for incontinence
supplies. Questionable Medicare Payments for Incontinence Supplies (OEI-03-94-O0772)
details trends and expenditures for incontinence payments. The third report, Medicaid
Payments For Incontinence Supplies (C)E1-03-94-00771), will examine   how the Medicaid
program processes claims for incontinence supplies in 14 States.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           4

                                FINDINGS

INFORMATION FROM NURSING HOMES INDICATES THAT SUPPLIERS

ENGAGE IN QUESTIONABLE MARKETING PRACIXES.


In some nursing homes, suppliers rather than physicians or nurses maybe deciding
what amount and type of supplies are ordered for patients. Twenty-four percent of
nursing homes (2459 of 10,245) reported that supplier representatives decide the
number of supplies to be delivered in a given month to beneficiaries. Several nursing
homes commented that suppliers make these decisions based on Medicare regulations.
However, only half of the nursing homes with patients receiving Medicare reimbursed
incontinence supplies knew that Medicare limits the amount of certain incontinence
supplies allowable per month.

Almost one-quarter (24 percent) of nursing homes reported that supplier
representatives have helped determine which patients are eligible for Medicare
reimbursement of incontinence supplies. According to 14 percent of nursing homes,
supplier representatives have also attempted to help facilities determine which patients
need incontinence supplies.

Suppliers in 20 percent of the nursing homes have provided the necessa~ prescription
forms to be filled out by the patient’s physician. In some nursing homes (7 percent)
with Medicare-reimbursed supplies, suppliers went a step further and filled out the
prescription forms and presented it to the nursing home for the physician’s signature.
Appendix A describes how data was analyzed for the nursing homes using Medicare
reimbursed supplies.

One out of five nursing homes have had supplier representatives request to review
patient medical records. The nursing homes reported that the main reason that
supplier representatives review medical records is to collect documentation concerning
the physician’s order, diagnosis, and necessity of the incontinence supplies. Others
indicated it was to record usage numbers for billing purposes. However, several
nursing homes said that suppliers do not review the patients medical record but will
ask nursing home staff to check medical records and provide them with information.
Another nursing home said they allow the supplier to review patient records but only
if a staff member is present.

Some suppliemroutinelywaivethe 20 pement coinsurancepaymentthatMedicare
benejiciati are requikd to pay.

Routine waiver of Medicare 20 percent copayments by suppliers is unlawful.

Medicare requires beneficiaries (unless there is financial hardship) to pay a 20 percent

portion of the cost of incontinence supplies. Twelve percent of nursing homes

reported that suppliers routinely waive the 20 percent copayment required of

Medicare beneficiaries. One of every four Medicare beneficiaries (26 percent)



                                            5
sampled stated that they did not pay coinsurance for their incontinence supplies nor
did they have any other insurance which would have paid the coinsurance amount.

While 12 percent of nursing homes said they were aware of suppliers waiving
copayment fees, another 21 percent did not answer the question. One reason for this
may be the fact that nursing homes are not always aware of what suppliers are billing
to Medicare or the amounts that Medicare is reimbursing for the supplies. Of the
nursing homes that have patients using incontinence supplies paid for by Medicare,
more than three-quarters utilize external suppliers that directly bill Medicare .

One nursing home indicated that it was not aware of the amount of money their
supplier was billing to Medicare for incontinence kits until residents began to receive
notices of Medicare billings in excess of $900 to $1200 dollars a month and bills for
large monthly copayment amounts. Upon becoming aware of the supplier’s billing
practices, the nursing home refused to accept kits from this company. Another
nursing home related this experience:

       We were approached by a supplier who stated Medicare paid for
       incontinence care. After 15 years of us paying, we decided to try this.
       We were appalled when families called us about the bills. We stopped
       the service immediately. We have not seen this supplier again.

Some musing homes have been ofl’ed ikducemen~by suppliem.

Eleven percent of the nursing homes (1127) reported that suppliers had offered them
inducements, such as free supplies, in exchange for allowing them to provide
incontinence supplies to their patients. Nursing homes have been provided free
supplies such as catheter care kits, incontinent pads, and disposable undergarments.
One nursing home reported that they received free gloves if they ordered incontinence
supplies and free disposable diapers with the purchase of incontinent kits.

BENEFICIARIES      MAY BE RECEIVING          UNNECESSARY        OR NON-COVERED

suPPLIEs.


Beneficiary responses indicate that their incontinence problems did not always meet

the coverage guidelines developed by HCFA. Medicare guidelines require

beneficiaries to have a diagnosis of permanent urinary incontinence in order to receive

incontinence supplies. However, 15 percent of the beneficiaries with incontinence

conditions related that they experienced problems only sometimes or rarely.


Beneficiaries also report that they do not utilize all of the incontinence supplies that

are reimbursed by Medicare. Of the beneficiaries who received these supplies, almost

30 percent said they did not use all the supplies paid for by Medicare. As illustrated

in the chart on the next page, while 15 percent said they used most the of the supplies

another 14 percent stated they used some or none of the supplies.




                                            6

            Portion of Incontinence Supplies	
                  Used by Beneficiaries	




                                                                       MOST
                                                                        15%




                              DON” T RECALL          I
                                    13%               -          12%
                                                          NONE
                                                           2%
         %~ercentages   have been rounded to the nearest whole number


NURSING HOMES REPORT THAT SOME SUPPLIERS                               PRESENT   THEM WITH

FALSE OR MISLEADING INFORMATION.


Nursing homes reported incidents where suppliers furnished false or misleading
statements about Medicare coverage policies. This may lead to non-covered or
unnecessary services being billed to Medicare and possibly to beneficiaries.

Twenty-two percent of nursing homes received false information from suppliers stating
that Medicare is introducing “new broader coverage” for incontinence supplies.
Another six percent of nursing homes have been told by suppliers that Medicare
requires the use of syringes, sterile saline solutions, and lubricant/skin barriers on
incontinent patients. As one supplier put it, “we’ve seen this when suppliers are trying
to sell products that don’t meet the Medicare criteria.”

Medicare does not cover supplies such as disposable incontinent briefs or absorbent
undergarments or pads. There are indications, however, that suppliers may be
marketing these products as female external urinary collection devices. Figure 1, on
the following page, is an illustration of an actual pouch type female urinary collection
device. The device is a plastic pouch which is attached to the body with adhesives and
has a drainage port at the other end. This device would meet Medicare guidelines for
coverage. Figure 2 is an illustration of what one supplier is calling a pouch-type
female urinary collection device in information provided to nursing homes. This


                                                 7
MANY NURSING HOMES DO NOT TIWC!K MEDICARE-REIMBURSED

SUPPLIES TO THE SPECIFIC BENEFICIARY FOR WHICH THEY WERE

BILLED.


In many nursing homes there appears to be no tracking system to ensure that all of
the incontinence supplies billed to Medicare for a specific patient are used for that
patient. Almost two-thirds of nursing homes (62 percent) using Medicare-reimbursed
incontinence supplies report that when supplies are delivered by suppliers they are not
marked or identified as being intended solely for a particular patient. Then after
receiving the supplies, more than two-thirds of nursing homes (68 percent) store them
in a general store room without patient labels or identification.

Since the majority of nursing homes did not indicate the existence of any specific
tracking mechanism for Medicare-reimbursed supplies, Medicare and individual
beneficiaries may be paying month after month for unnecessa~ supplies which maybe
used for other patients. In fact, almost one-third of nursing homes (32 percent) using
Medicare-reimbursed incontinence supplies stored unused excess supplies and then
used them as needed for all patients.

Several nursing homes did report that supplies are tracked for usage by specific
beneficiaries and subsequently billed to Medicare only when used. Some of these
nursing homes explained that when the supply is removed from the supply room for
usage it is logged on to a patient usage sheet. Other nursing homes described that
Medicare-reimbursed supplies were kept in supply rooms that contained only
Medicare Part B supplies.




                                           9

                              NEXT              STEPS�

IncontinenceSuppi’kx

In response to the information presented in this report and a companion report, the
Office of Inspector General plans to:

       o�     initiate an audit review to examine in more detail payments made for
              incontinence supplies in order to determine if any overpayments are
              involved in this are% and

       o�     launch a national investigation in this area, examining potentially
              fraudulent practices by specific suppliers of incontinence supplies.

We also support ongoing activity in HCFA and the DMERCS to develop more specific
coverage guidelines and educate providers and suppliers about proper billing for such
supplies. We hope the information contained in this report is helpful as they complete
this activity.

OIG StudiesOf OtherN&g        Home Services

The OIG will continue studies     and audits related to its major initiative examining
services and supplies provided    to Medicare beneficiaries residing in nursing facilities.
As this report and other OIG      work has reflected, the fragmentation of billing for
services and supplies provided    to residents of nursing homes has created a host of
improper incentives for billers   to the Medicare program.

Bundliizgof Sen.kes

We continue to support HCFA’S efforts to pursue a systematic solution to these kinds
of problems through a requirement for “bundling” of services in nursing home settings.
Under such an approach, the nursing home would be responsible for providing
commonly needed services to residents of that facility, rather than allowing for
separate billing by suppliers. Such a solution would eliminate the incentives suppliers
now have to aggressively seek out patients in nursing homes and market their products
inappropriately in those settings. It would also ensure that nursing homes take on
appropriate responsibilities for services and supplies delivered to residents in their
facilities.




                                               10

                            APPENDIX                  A�
    NURSING FACILITY SURVEY INSTRUMENT                  AND RESPONSE RATES

Each nursing home in our sample was asked to complete a 39 question survey. The
questions for the survey were developed by reviewing information on incontinence
supplies produced by HCF~ the Durable Medical Equipment Regional Carriers, and
the Office of Investigations within the OIG.

For most questions, we report the percentage of nursing home responses to the
question and the projected number of responses. The percentages have been rounded
to the nearest whole number and therefore will not always add up to exactly 100
percent. The projected numbers have been rounded and will therefore not always add
up to exactly 10,245 nursing homes. In addition, for several questions respondents
selected more than one answer. These questions are identified by an asterisk in the
sample survey instrument that follows.

We also report the semi-width for each of the response percentages at the 95 percent
confidence level. The semi-width is the standard error of the projection multiplies by
1.96. The semi-width added or subtracted to the percentage provides a 95 percent
confidence interval. The range of the 95 percent confidence interval is presented in
the table following each question.

In the several questions where respondents were asked to provide numerical data (e.g.
number of beds or percentage of patients receiving incontinence supplies), an average
number or percentage is provided. For questions where we requested textual
responses, a percentage of respondents who provided written responses is given.
In addition, when written responses were furnished, these questions were analyzed for
content and used in the report. However, due to the length of the responses, they are
not presented in this Appendix.

There are instances in the report where information from a subset of nursing homes
which used Medicare-reimbursed incontinence supplies for patients is presented.
These data were developed by evaluating responses from just the 75 percent of
nursing homes (7,584 projected number of facilities) who answered “yes” to question
six of the survey- “are any of the incontinence supplies used for patients in your
nursing facility billed to Medicare Part B.”




                                         A-1

            INCONTINENCE           SUPPLIES:       NURSING FACILITY SURVEY

This survey is being conducted by the Oftice of Evaluation and Inspections within the U.S. Department
of Health and Human Services’Offke of Inspector General. We are currently reviewing Medicare’s
payments for incontinence supplies. We are also interested in learning about equipment suppliem’
marketing practices for incontinence supplies.

Our review is focusing on Medicare Part B payment of incontinence supplies. Please keep this in mind
when completing this survey. We are not at this time interested in incontinence supplies that are
included in Medicare Part A cost reports.

All information DrOVidedwill be keDt confidential. All data will be reported out in the amreeate and
the names of nurshv!facilitieswill never be identified to the Dublic. If you have any questions about
this survey, please call Robert Katz or Linda Ragone at 1-800-531-9562.

Please return this survey by September 15, 1994 in the enclosed self-addressed, pre-paid envelope or if
you prefer you can fax it to us at (215) 5%-6987. We appreciate your cooperation and assistance.

Pklseprilu & fouowing rnfmmation @kzsefirtasthenqmn&mtthept7sonwho ans Wersthemq
W@@@’
RESPONDENT


JOB TITLE


NURSING FACILITY:


ADDRESS:




TELEPHONE



General Information





                                                 A-2

2.    How many beds does your nursing facility contain?




       Number of Skilled Nursing Beds                                 63.2             *10.9
                                                                                 !                 I
       Number of Nursing Beds                                         62.3              *9.6      II

3.    How many patients are currently residing in your facility?




4.    What percentage of your population is eligible for Medieare Part B Coverage?




       Pereent Eligible for Medieare Part B Coverage                  83.3              *3.2



5.�   What percentage of your current patient population receive incontinence supplies (e.g.
      indwelling catheters, external urinary and fecal collection deviees, irrigation syringes, sterile
      irrigation solutions, skin barriers, lubricants)?




      Percent of Patients Receiving Incontinence Supplies             2s.4              *5.2



6.�   Are any of the incontinence supplies used for patients in your nursing facility billed to
      Medicare Part B?




                                                 A-3

7.�    Does your nursing facility act as the sole supplier for incontinence supplies by billing Medicare
       Part B or do you have at least one external supplier of incontinence supplies?




         Nursing Facility is sole supplier             19          �6.5             1947
                                                 I           I                I

         At least one external supplier                69          *7.7             7069
                                                 I           I                I
         Other (please specify)                        6           *3.9              615
                                                 I           I                I
         No Response                                   5           *3.6              512

Use of Incontinence Sumiiea

8.     Who decides that a patient has a need for incontinence supplies?




         Family Physician                             69           *7.7             7069
         Medical Director of Nursing                   9           *4.7              922
         Facility
         Supplier Representative             I         o                              o
         Nurse/Nursing Facility                       54           *8.3             5532
         Attendant
         Invento~ Supervisor                           1           *1.6              102
         Other (please specify)                       14           *5.7             1434
         No Response                             1             *1.6                  102
         more than one answer was selectedb y some respondents

9.�    What medical conditions need to be present in order for you to order incontinence supplies for
       Medicare beneficiaries?




         Physical dysfunction of urinary              77           *7.O             7889
         or intestinal tracts
         Permanent Urinary Incontinence               49           *8.3             5020
         Need for indwelling catheter                 54           *8.3             5532
                                             I              1                I
         Alzheimer’s/Dementia                         16           *6.1             1639
                                             I              I                I
         Other (please specify)                        16          *6.1             1639
                                             I              I                I
         No Response                            4              *3.2                  410
         more than one answer was selected by some respondents


                                                     A-4
10.   Who deeides what specific supplies will be ordered for the patient?




       Family Physician                     I     54         I   *8.3       I   5532
       Medical Director of Nursing                9              *4.7           922
       Facility
       Supplier Representative                    4              *3.2           410
       Manufacturer of Supplies                   1              +1.6           102
       Nurse/Nursing Facility                     59             *8.1           6045
       Attendant
       Inventory Supervisor                 I     11         I   *5.2       I   1127
       Other (please specifi)               I     14         I   *5.7       I   1434
       No Response                            2              *2.3               205
       more than one answer was selected by some respondents




11.   How are the incontinence supplies initially ordered?




       Nursing facility contacts supplier         81             *6.5           8298
       Supplier is told of need when              15             *5.9           1537
       supplier representative or
       delivery person visits
       Supplier suggests incontinence             3              �2.8           307
       supplies would be appropriate
       for certain patients
       Other (please speci$)                      12             *5.4           1229
       No Response                            2              *2.3               205
       more than one answer was seleeted by some respondents




                                                A-5

SumlierMarketiwPraeticea


12.   How did your facility become aware of the suppliers you use?
                           ._’:,..., ,.. ., ,,,.
                                             ,,,.’.,.:,.. .,, ,. ,,,:...
                                                                     ,...:
                                                                       . ,., ,:,,:,::, ,,.:.. .::..,
                                                                                                  ,.....:.::
                                                                                                        ..:.:.:.,.,
                                                                                                           ,: :,, ,:,   . :,,.,.::.
                                                                                                                                  ~:::
                                                                                                                                    >.::,
                                                                                                                                       ..,,:.,;,, :,,.
        .,,,.’.’... :::%t&+@””’f”; “~!’:”:::::.!.::       j. ,<
                                                              P&%i#@l       ““:+  :“$x%”.wwiti%:i:i;?.tijwwiNu#k*:
                                                                     .,,..: :,,:,’:
                                                                                  :., ,’‘....#tit6iWKw
                                                                                           .:,.:.”.”.’
                                                                                                : ‘.. .“.”.
                                                                                                       . .““.”.’.
                                                                                                             .““.”-
                                                                                                                 “..::....“.““.
                                              ,.
                                                                                  ..... . ..’:        .:..-.,. ‘::?“lxM@iiig*q;
                                                                                                                         .,.,
                                                                                                                           ...........
                                                                                                                           .....  ...
       Through supplier advertisements                           10                              +5.0                              102.5
       Through supplier direct mail                                          6                        *3.9                         615
       marketing
       Through supplier                                                     61                        *8.1                        6249
       representative/salesperson visit
        Other (please speeify)                                              32                        *7.7                        3278
       No Response                            5              *3.6                                                                  512
      %more than one answer was selected by some respondents


13.   How many different suppliers provide you with incontinence supplies for your patients?




                                                                        A-6

16.�   Have supplier representatives ever attempted to help you determine which patients in your
       facility need incontinence supplies?




        Yes                                        14                *5.7            1434
        No                                         83                *6.2            8503
                                           I
        No Response                                3                 *2.8            307

17.�   Have supplier representatives ever helped you determine which patients in your facility quali&
       for Medicare reimbursement of incontinence supplies?




        Yes                                        24                *7.1            2459
        No                                         73                *7.4            7479
        No ReSDOnse                                3                 *2.8            307

18.�   Have you ever been offered inducements by suppliers such as free products to allow them to
       provide incontinence supplies to your patients?




        Yes                                        11                *5.2            1127
        No                                         85                *5.9            8708
        No ResDonse                         14              \        +3.2   I        410

       If yes, please describe the nature of such inducements.




       IIProvided Information
         Did Not Provide Information
                                                                 1
                                                                                13
                                                                                87
                                                                                             II
19.�   Has a supplier ever provided you with the necessary prescription forms to be filled out by your
       facility’sphysician or the patient’s family physician?




        Yes                                        20                *6.6            2049
        No                                         78                *6.9            7991
        No Res~onse                                2                 *2.3            205


                                                 A-7
20.	   Has a supplier ever filled out the prescription form and presented it to you for the physician’s
       signature?




        Yes                                         6              *3.9             615

        No                                         89 ‘            *5.2             9118

        No    RW)OIN2                               5              *3.6             512




21.�   Does the supplier representative decide the number of supplies to be delivered in a given
       month?




22.    Have you ever received information from a supplier stating that Medicare is introducing new




        Yes                                         6              *3.9             615
                                                                                               I

        No                                         91              *4.5             9323

                                            I               I                I                 1

        No Response                                 3              *2.8             307





                                                A-8

24.�   Have you ever been told by a supplier that Medicare will cover other routine inecmtinemx
       supplies such as absorbent undergarments or pouches if syringes, sterile solutions, and
       lubricants are purchased?




       IIYes                               I      10       I        ,5.0   \         1025
        No                                        87                *5.6             8913
        No Response                               3                 �2.8             307



25.�   Do your suppliers routinely waive the 20 percent copayment required of Medicare
       beneficiaries?




        Yes                                       12                *5.4             1229
        No                                        66                *7.8             6762
        No Response                               21                *6.7             2151



26.    Have supplier representatives ever requested to review patient medieal records?




        Yes                                I      21       I        *6.7    I        2151
        No                                 I      74       I        *7.3    I        7581
        No Response                               4                 *3.2             410

       If yes, for what reason?




       IIDid
         Provided Information
             Not Provide Information
                                                                I
                                                                                24
                                                                                76
                                                                                            I




                                               A-9

27.    Are incontinence supplies marketed to you in kits or as bulk supplies?




       1Incontinence Kits
                                            I
                                                   14
                                                             I
                                                                    *5.7
                                                                              I
                                                                                        1434

       IIBulk Supplies
         Both Kits and Bulk Supplies
                                            I
                                                   56
                                                   16
                                                             I
                                                                    *8.2
                                                                    *6.1
                                                                              I
                                                                                        5737
                                                                                        1639
                                                                                                 I


                                            I                I                I                  I

        Other (please speei&)                      10               *5.O                102s
                                        I               I                     I                  1
        No Response                            7              *4.2                      717
        more than one answer was selected by some respondents

28.    Are incontinence supplies shipped to you in kit or bulk form?




        Incontinence Kits                           10              *5.O                102s
                                                                               1
        Bulk Supplies                              61               *8.1                6249
                                                                               I
        Both Kits and Bulk Supplies                 16              ~6.1                1639
                                            I                I                 1
        Other (please speei~)                       8               *4.5                820
                                            I                I                 I
        No Response                            8              *4.5                      820
        more than one answer was selected by some respondents

29.�   When delivered by the supplier, are incontinence kits or supplies marked or identified as being
       intended solely for a particular patient?




        Yes                                         28              *7.4                2869
        No                                          63              *8.O                6454
        No Response                                  9              *4.7                922

30.�   If suppliers market or ship incontinence kits to your facility, what supplies are typically
       contained in a kit that is not used for the insertion of a mtheter?




         Did Not Provide Information                                               73
                                                                                                 I




                                                A-10

31.�   If suppliers market or ship incontinence kits to your facility, do you typically use all of the
       supplies within those kits?




        Yes                                           39                *8.1             3996
        No                                            14                *5.7             1434
        No Response                                   48                *8.3             4918

       If no, what supplies are typically not used?




       II! Provided Information
                                                                    I
                                                                                    8
                                                                                                  u
                                                                                                   I
           Did Not Provide Information                              I               92

32.    Do suppliers provide you with all the necessary incontinence supplies for each patient once a
       month?




         Yes                                          50                *8.3             5123
         No                                           36                *8.O
         No Response                                  14                *5.7             1434

       If no, how are supplies provided by the supplier?



       IIProvided Information                                       I               28            II
         Did Not Provide Information                                                72            II
33.    How are incontinence supplies stored in your nursing facility?



       IIStored by individual patient        I        18      I         *6.4    I        1844      II
       IIassignment in supply room
                                             1                I                 I                  I
       IIStored by the patient’s bedside
         Stored in general supply room
                                             r
                                                      74
                                                              1
                                                                        *7.3
                                                                                1
                                                                                         7581
                                                                                                  I
       IIOther (please specify)              I
                                                      8
                                                              1
                                                                        *4.5
                                                                                1
                                                                                         820
                                                                                                  II
                                                      9                 *4.7             922
                                             1                1                 I
         No Response                            6              *3.9                      615
         more than one answer was selected by some respondents


                                                 A-II
34.    What happens to unused or excess supplies?




        Returned to supplier                      26              *7.3
        Stored for future use by specific         23              *7.O             2356
        patient
        Stored and used as needed for             34              *7.8             3483
        all patients
        Other (please speci&)                     12              *5.4             1229

       1
         No Rewonse
                .                        1      11       1     *5.2         1      1127    II
       4 more than one answer was selected by some respondents


35.    Have you ever received suppIies that were not ordered?




36.    Have you ever received supplies where no specific beneficiary was identified?




37.�   Do you know if Medicare limits the maximum amount of incontinence supplies allowable for
       payment each month per patient?




        Yes                                       42              *8.2             4303
                                                                                           I

        No                                        51              *8.3             522S

        No Response                                 6             *3.9             615





                                              A-12

        If yes, please describe the limits.



        IIProvided Information                                     I             36               II
        i Did Not Provide Information                              I             64               u

38.     Do you have written or oral agreements with your incontinence suppliers?




         Yes                                         37                �8.O           3791
          No                                         54                *8.3           5532
          No Response                                9                 �4.7           922

        If yes, please deseribe the nature of such agreements and enclose a copy of any written
        agreements.



        ]]Provided Information                                     I             31               II
          Did Not Provide Information                                            69

39.     Have you ever complained to Medicare or other authorities about the marketing or business
        practices of any suppliers?




          Yes                                        6                 *3.9            615
                                              1               1
          No                                         91                *4.5           9323
                                              I               1
          No Response                                4                 *3.2            410

        If yes, what was the nature of these practices?




Thank you for completing this survey. If you have additwnal comments or would like to answer any of the
questbts more I?@, please u.re the next page marked Aaiiitional Comments for this putpose. Please return
the survey in the self-addressed postage-paid envelope we included in our mailing to you or fzx the survey
and any additional information to us at (215) 596-6987



                                                  A-13
                            APPENDIX                  B�
       BENEFICIARY      SURVEY INSTRUMENT           AND RESPONSE RATES

Medicare beneficiaries in our sample were asked to complete a short six question
survey. The answers to these questions provided information on the severity of their
incontinence conditions and the use of supplies for their condition.

For the questions, we report the percentage of beneficiary responses to the question
and the projected number of responses. The percentages have been rounded to the
nearest whole number and therefore will not always add up to exactly 100 percent.
The projected numbers have been rounded and will therefore not always add up to
exactly 141,932 beneficiaries.

We also report the semi-width for each of the response percentages at the 95 percent
confidence level. The semi-width is the standard error of the projection mutiplies by
1.96. The semi-width added or subtracted to the percentage provides a 95 percent
confidence interval. The range of the 95 percent confidence interval is presented in
the table following each question.

The sample survey instrument with results begins on the next page.




                                         B-1

OUR RECORDS      SHOW THAT BETWEEN    ._.  AND

MEDICARE PAID          FOR SUPPLIES RELATED TO =ONTINENCE          ON

YOUR BEHALF.


FOR THE PURPOSES OF THIS SURVEY, INCONTINENCE SUPPLIES

INCLUDE EQUIPMENT AND PRODUCTS INTENDED FOR PERSONS WHO

HAVE PROBLEMS WITH BIADDER AND/OR BOWEL CONTROL.


              PLEASE ANSWER THE FOLLOWING     QUESTIONS.

1.�   DID YOU RECEIVE INCONTINENCE SUPPLIES DURING THE TIME
      PERIOD MENTIONED ABOVE? SUCH SUPPLIES COULD HAVE
      INCLUDED CATHETERS, GAUZE PADS, ABSORBENT
      UNDERGARMENTS   (SIMILAR TO DIAPERS), LUBRICANTS,
      DRAINAGE AND COLLECTION DEVICES, OR STERILE LIQUIDS.




       All                           59       *9. 1       66,578

      IMost
                               I
                                     15
                                          I
                                              *6.4
                                                      I
                                                          16,950

      1Some                          12       ~6.O
                                                      1
                                                          13,030
       None                          2        *2.3         2,254
       Do Not Recall                 13       *6.3        14,570




       Yes                           59       *8.3        82,955
                                          I           1
       No                            36       *8. 1       50,915
       Do Not Recall                 1        *1.8         1,540
       No Response                   5        *3.2         6,522


                                   B-2
3.
   WERE YOU RECEIVING SERVICES FROM A HOME HEALTH AGENCY (SUCH AS A
      VISITING NURSE OR AIDE) DURING THE TIME PERIOD MENTIONED ABOVE?




       Yes                          13         *6.O       19,061
                                                      1             I
       No                           78         *6.8       110,651
                                                      1             II
       Do Not Recall
       No Response
                                    4
                                    5
                                               *2.6
                                               *3.2
                                                      1
                                                          5,221
                                                          6,998
                                                                    I

4.
   DID YOU PAY COINSURANCE (THE USUAL 20 PERCENT OF THE AMOUNT
      MEDICARE ALLOWS FOR SUPPLIES) FOR INCONTINENCE SUPPLIES RECEIVED
      DURING THE PERIOD MENTIONED ABOVE?




5.
   DURING THE TIME PERIOD MENTIONED ABOVE, DID YOU HAVE ANY
      PROBLEMS ASSOCIATED WITH BLADDER OR BOWEL CONTROL?




                                  B-3

     IF YOU ANSWERED YES TO QUESTION 5, HOW OFT’EN DID YOU EXPERIENCE
     SUCH PROBLEMS? (CHECK ONE BLOCK)




WHEN YOU COMPLETE THE SURVEY FORM- PLEASE IU?lUIW IT TO US IN THE
ENcLXXED POSTAGE-PAIDENVELOPE


           IF YOU HAVE ANY QUESTIONS REGARDING THIS SURVEY>

       PLEASE CALL RICHARD LYONS, PROJECT DIRECTOR, AT (410) 966-3143.



PLEASE USE THE SPACE BELOW IF YOU WISH TO ADD ANY ADDITIONAL COMMENTS




                                    B-4

.



    Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




      MARKETING OF INCONTINENCE
               SUPPLIES




                        JUNE GIBBS BROWN
                        Inspector General

                          DE_ER          1994
                           OEI-03-94-00770



                                                —
                       OFFICE OF INSPE(XOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Seti=$          the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The 010’s Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office, under the direction of Joy Quill, Regional Inspector General and Robert A.
Vito, Deputy Regional Inspector General. Project staff included:

PHILADELPHIA REGION                                   HEADQuARm

Robert A. Katz, Project Leader                        Thomas A. Noplock, Program Specialist
Linda M. Ragone, Progam Analyst                       Richard P. Lyons, Ofice of Audit Services
Robert A. Baiocco, fiogram Analyst                    Linda M. Moscoe, Technical Suppoti Stafl
Cynthia Hansford, Administrative Stafl                Brian P. Ritchie, Technical Support Stafi
                                                      Barbara Tedesco, Technical Support Sta#


To obtain a copy of this repo~ please call the PhiladelphiaRegional Off&at       (800) 531-9562.
